         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA’s Revised Hiring Process
       Needs Additional Improvements
       Report No. 10-P-0177         


       August 9, 2010        

Report Contributors:                          Eric Lewis
                                              Larry Dare
                                              Dwayne Crawford
                                              Chris Baughman
                                              Ben Beeson
                                              Allison Dutton
                                              Christine El-Zoghbi
                                              Tim Roach




Abbreviations

EPA          U.S. Environmental Protection Agency
HRACTS       Human Resources Activity and Communication Tracking System
HRMD         Human Resources Management Division
OARM         Office of Administration and Resources Management
OIG          Office of Inspector General
OMB          Office of Management and Budget
OPM          Office of Personnel Management
RTP          Research Triangle Park
SOP          Standard Operating Procedure
                       U.S. Environmental Protection Agency 	                                               10-P-0177
                                                                                                        August 9, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review            EPA’s Revised Hiring Process
We reviewed the U.S.
                                  Needs Additional Improvements
Environmental Protection
Agency’s (EPA’s)                   What We Found
appointment process managed
by its Office of Administration   EPA had not implemented critical technology upgrades or obtained other
and Resources Management          resources necessary for the service center concept to succeed. EPA produced
(OARM) to determine how the       three reports, including its 2007 Business Case, which identified key factors for a
new process for filling           successful transition to the service center concept. However, EPA management
vacancies can be more             implemented the transition without obtaining some of these key capabilities,
efficient and effective.          including electronic infrastructure. Proceeding without ensuring that key
                                  requirements were satisfied is a significant weakness in management control. As a
Background                        result, the new process to fill vacant positions falls significantly short of OPM
                                  timeliness goals and does not consistently provide program managers with the best
OARM revised EPA hiring           candidates.
procedures in June 2008 when
it consolidated the processing    Service centers did not consistently provide program managers with the best
of personnel actions from         candidates, and data quality and recruitment action processes need improvement.
15 locations across the country   We also noted a lack of management attention to policies and inconsistencies in
to 3 OARM service centers.        service center operations. As a result, the appointment process is not providing
These procedures must             program offices with the right people, in the right place, at the right time, thus
comply with pertinent             impacting EPA’s ability to effectively perform its mission.
requirements, including those
imposed by the Office of           What We Recommend
Personnel Management
(OPM).                            We recommend that EPA officials determine the scope of services to be obtained
                                  from a line-of-business provider, select the provider, and develop and implement a
                                  plan to migrate to the provider. In addition, we recommend that the appropriate
                                  EPA official help program offices standardize position descriptions and review
                                  EZ-Hire questions; increase subject matter expert involvement in evaluating
                                  applications; improve the reorganization policy and procedures; obtain feedback
For further information,          on inquiries about personnel actions being processed; and address various staffing,
contact our Office of
Congressional, Public Affairs     policy, and procedural issues.
and Management at
(202) 566-2391.                   In response to Agency comments on the draft report, we changed the action
                                  official for five recommendations and slightly modified the wording for two.
To view the full report,
click on the following link:
                                  Agency officials agreed with most of our recommendations but disagreed with
www.epa.gov/oig/reports/2010/     recommendation 2-3 and part of recommendation 3-4; these recommendations are
20100809-10-P-0177.pdf            undecided pending the Agency’s 90-day response.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460



                                                                                      THE INSPECTOR GENERAL



                                             August 9, 2010

MEMORANDUM

SUBJECT:	               EPA’s Revised Hiring Process Needs Additional Improvements
                        Report No. 10-P-0177


FROM:	                  Arthur A. Elkins, Jr.
                        Inspector General

TO:                     Craig Hooks
                        Assistant Administrator for Administration and Resources Management

                        Barbara Bennett 

                        Chief Financial Officer 


                        Malcolm D. Jackson
                        Assistant Administrator for Environmental Information
                        and Chief Information Officer


This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report represents
the opinion of the OIG and does not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time plus travel costs – is $805,400.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 90 calendar days. Your response will be posted on the OIG’s public Website, along with
our comments on your response. Your response should be provided in an Adobe PDF file that
complies with the accessibility requirements of section 508 of the Rehabilitation Act of 1973, as
amended. If your response contains data that you do not want to be released to the public, you
should identify the data for redaction. You should include a corrective actions plan for your
actions, including milestone dates. We have no objections to the further release of this report to the
public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General for Program Evaluation, at 202-566-0832 or najjum.wade@epa.gov;
or Eric Lewis, Director, Special Reviews, Office of Program Evaluation, at 202-566-2664 or
lewis.eric@epa.gov.
EPA’s Revised Hiring Process Needs Additional Improvements                                                                 10-P-0177



                                  Table of Contents 


Chapters 

   1	   Introduction .......................................................................................................      1         


                Purpose ......................................................................................................    1             

                Background ................................................................................................       1             

                Noteworthy Achievements...........................................................................                4             

                Scope and Methodology..............................................................................               4             


   2	   Service Center Needs Identified But Not Implemented 

        Before Transition................................................................................................         6         


                EPA Identified Key Factors for Successful Transition .................................                            6

                Technology Investment Was Not Successful ..............................................                           6

                Service Centers Cannot Assess Performance Regarding 

                   Customer Service Standards..................................................................                   8

                Staffing Plan Was Not Adjusted ..................................................................                 9

                Conclusion ..................................................................................................     9             

                Recommendations .....................................................................................            10             

                Agency Comments and OIG Evaluation .....................................................                         10 


   3	   Service Centers Not Meeting Expectations .....................................................                           12     


                Service Centers Are Not Meeting Timeliness Goals ...................................                             12 

                Service Centers Have Not Consistently Provided Qualified Candidates.....                                         16 

                Data Quality and Recruitment Action Processing Issues Noted..................                                    17 

                Conclusion ..................................................................................................    19             

                Recommendations .....................................................................................            19             

                Agency Comments and OIG Evaluation .....................................................                         20 


   Status of Recommendations and Potential Monetary Benefits..............................                                       22     




Appendices 

   A    Agency Response to Draft Report ...................................................................                      24     


   B    Distribution ........................................................................................................    31     

                                                                                    10-P-0177 





                                Chapter 1

                                 Introduction
Purpose
          The U.S. Environmental Protection Agency (EPA) Office of Inspector General
          (OIG) reviewed EPA’s recently revised appointment process managed by its
          Office of Administration and Resources Management (OARM). Our objective
          was to determine how the new process for filling vacancies can be more efficient
          and effective.

Background
          EPA’s goal is to have people with the right skills, in the right place, at the right
          time to protect human health and the environment. Under authority provided by
          the Office of Personnel Management (OPM), EPA is responsible for managing its
          personnel services, which includes appointing staff to vacant positions. In April
          2008, to improve the human resources function, EPA consolidated the services
          previously spread across 15 locations nationwide into 3 service centers. Each
          center is a Human Resources Management Division (HRMD) within OARM.
          The service centers are located in:

             •   Research Triangle Park (RTP), North Carolina
             •   Cincinnati, Ohio
             •   Las Vegas, Nevada

          The first of EPA’s 23 major organizations to be serviced by one of the service
          centers transferred in June 2008. As of December 2009, all major organizations
          had transitioned to the service centers. Political and Senior Executive Service
          appointments are still processed by EPA’s Executive Resources Division in the
          OARM Office of Human Resources.

          Agencies Must Have Internal Controls

          Office of Management and Budget (OMB) Circular A-123, Management’s
          Responsibility for Internal Control, states that internal control is an integral
          component of an organization’s management, providing reasonable assurance that
          the following objectives are being achieved: effective and efficient operations,
          reliable financial reporting, and compliance with applicable laws and regulations.
          Management is responsible for developing and maintaining internal control
          activities that comply with the following standards: control environment, risk
          assessment, control activities, information and communications, and monitoring.
          The risk assessment standard states that management should identify internal and
          external risks that may prevent the organization from meeting its objectives.


                                           1

                                                                                                        10-P-0177 





                 EPA Policy and Guidance Address Reorganizations

                 EPA Order 1110.8A5, EPA Reorganization Policy, requires OARM to provide
                 centralized oversight of the reorganization process. Specific guidance is in the
                 July 2003 Final Reorganization Toolkit. The toolkit includes guidance on issues
                 ranging from how to plan a reorganization to evaluating the reorganization’s
                 effectiveness. Neither the policy nor the toolkit addresses information system
                 changes or a risk assessment as part of the process.

                 Filling Vacancies Requires Collaboration

                 Filling a vacant position is a three-phase collaborative process. The primary
                 participants include the program office1 with the vacant position, the service
                 center responsible for processing the action (the HRMD), and the applicants.
                 Other key participants include OARM’s Personnel Security Branch and those who
                 provide new employee orientation.

                 The three phases of the hiring process are summarized below. The process starts
                 when the program office officially makes a request to fill a vacancy and approves
                 the form requesting a personnel action. It ends on the date the employee begins
                 work. According to OPM’s September 2008 end-to-end initiative, the goal for
                 completing this process is 80 calendar days, or 58 work days.

                      Initial Phase: This period is from when the program office decides to fill the
                      vacancy to the close of the vacancy announcement. The OPM goal for this
                      phase is 20 calendar days.

                      Middle Phase: This period is from when the vacancy announcement closes
                      to when the initial job offer is made. The OPM goal for completing this phase
                      was 45 work days, but under the end-to-end initiative, it is 25 work days, or
                      34 calendar days.

                      Final Phase: This period is from when the initial job offer is made (and
                      accepted) to the candidate entering on duty at EPA. The OPM goal for this
                      phase is 26 calendar days.

                 As shown in Figure 1-1, the HRMD directors each report to a different office
                 director, all of whom report to the OARM Assistant Administrator. The director
                 of the OARM Office of Human Resources is the national program manager for
                 human resources but does not directly supervise the HRMDs in Cincinnati and
                 RTP.



1
 In this report, the term “program office” represents the organizations within EPA (program offices, regional
offices, and the Office of Inspector General).


                                                         2

                                                                            10-P-0177 



Figure 1-1: Reporting Chain for HRMDs




Source: OIG analysis.


As of December 2009, the three service centers were almost fully staffed. RTP
had 2 vacancies (51 of 53), Las Vegas had 1 vacancy (22 of 23), and Cincinnati
had 2 vacancies (31 of 33).

OARM requires each service center to use the same standard operating
procedures (SOPs). The first nine procedures were approved on June 30, 2008,
and covered classifying positions and filling vacant positions using delegated
examining or merit promotion announcements.

The service centers use the Human Resources Activity and Communication
Tracking System (HRACTS) to monitor the status of personnel actions. Directors
also use the system to manage workload. The system was originally used only by
the RTP HRMD to track the middle phase of the process; OARM has adapted it to
provide information about all three phases.

In July 2008, EPA established customer service standards for processing
personnel actions. The standards, which are discussed in Chapter 2, included
qualitative and quantitative (e.g., timeliness) standards and related goals for Fiscal
Years 2009, 2010, and 2011.



                                  3

                                                                                  10-P-0177 



         OPM Wants Agencies to Use Certified Providers; EPA Is Uncertain
         What Services It Will Obtain

         OPM, at the direction of OMB, is managing a government-wide effort to improve
         service and reduce costs for information technology systems and supporting
         processes associated with human resources. Under this human resources line-of-
         business, OPM certified selected Federal Government entities and private-sector
         companies to provide services to federal agencies. In July 2009, EPA completed
         a study of providers to update a previous June 2007 analysis of government
         providers and to also evaluate private-sector companies. When additional
         analysis is completed in July 2010, EPA will decide what services it will obtain
         from which line-of-business provider. EPA is uncertain when it will move to a
         line-of-business provider; the move may not occur for 2 years.

Noteworthy Achievements

         Positive Impacts Resulting from EPA’s Transition to the Service Centers.
         OARM managers stated that before transitioning to the service centers, each of
         the 15 human resources offices could establish their own SOPs, resulting in little
         or no consistency in how work was accomplished. The three service centers have
         implemented 16 SOPs ranging from recruitment procedures to reassignments and
         leave-without-pay procedures, and more are being drafted. We believe that SOPs
         promote better performance.

         Human Resources Activity and Communication Tracking System. Although
         there are issues regarding the accuracy and completeness of data in HRACTS,
         OARM stated that it is the first EPA-wide system to track how long it takes to fill
         vacancies. OARM stated that previously, much of the information regarding
         recruitment timeliness was anecdotal. We believe an accurate tracking system
         will help provide reliable status information for process managers and customers.

Scope and Methodology
         We conducted our audit work from August 2008 to May 2010. We conducted our
         work in accordance with generally accepted government auditing standards issued
         by the Comptroller General of the United States. Those standards require that we
         plan and perform the review to obtain sufficient, appropriate evidence to provide
         a reasonable basis for our findings and conclusions based on our objectives. We
         believe the evidence obtained provides a reasonable basis for our findings and
         conclusions based on our objectives. We assessed internal controls over the new
         hiring process used by the service centers. We did not review EPA’s previous
         practices.

         We interviewed EPA employees involved in the new process, including staff in
         selected program offices, the three service centers, and OARM, including the



                                          4

                                                                                    10-P-0177 



Personnel Security Branch. We also interviewed the employees who were
recently appointed to the positions in our sample.

Our sample included initial actions that used the new procedures. The actions
originated in the 10 EPA program offices that transitioned to a service center
during 2008. We further limited our review to those appointment actions
identified in HRACTS that used either delegated examining announcements
(to recruit applicants who do not have federal status) or merit promotion
announcements (to recruit applicants who have current or prior competitive
federal status or special appointment eligibility). Our sampled actions were
received at one of the three service centers between August 17 (or when the
program office transitioned to the service center if it was later) and December 31,
2008. Further, the service center must have made the initial job offer before
January 16, 2009. In addition to talking to those involved in processing the
actions, we reviewed the related case files kept by the service center and
compared the steps performed to the applicable SOPs. The universe and sampled
actions are summarized by service center in Table 1-1.

Table 1-1: Recruitment Actions Started and Sampled, by Service Center
 Service Center                           Started                Sampled
 Las Vegas                                 104                       13
 RTP                                       133                        9
 Cincinnati                                 38                        6
 Total                                     275                       28
Source: Information on actions started came from HRACTS as of January 15, 2009.
We adjusted the sample size to 28 due to inaccurate HRACTS information, discussed
later in this report.

Although our review did not directly address EPA’s actions regarding the human
resources line-of-business, we do address the impact of not obtaining necessary
information system upgrades on the appointment process. In addition, another
recent OIG report also addressed information systems related to human resources:
EPA’s Human Resources Management System Did Not Deliver Anticipated
Efficiencies to the Shared Service Centers, Report No. 09-P-0206, issued
August 11, 2009.




                                     5

                                                                                  10-P-0177 





                                Chapter 2

            Service Center Needs Identified 

         But Not Implemented Before Transition 

          EPA has not implemented critical technology upgrades or obtained other
          resources necessary for the service center concept to succeed. EPA produced
          three reports that identified key capabilities for a successful transition to the
          service center concept. However, EPA management implemented the
          reorganization without obtaining some of these key capabilities, including
          electronic infrastructure. Proceeding without ensuring that key requirements were
          satisfied is a significant management control weakness. As a result, the new
          process to fill vacant positions (i.e., the appointment process), which included
          EPA’s reorganizing to just three service centers, falls significantly short of OPM
          timeliness goals and does not consistently provide program managers with the
          best candidates. These effects are discussed in Chapter 3.

EPA Identified Key Factors for Successful Transition
          EPA identified critical technology upgrades and resources for the service centers
          in three documents. Both the June 2007 document, Human Resources Line of
          Business Shared Service Center Analysis, and the 2008 reorganization plan
          contained important information pertinent to transitioning to service centers.
          However, the May 2007 report, Business Case Study: Shared Service Centers for
          Human Resources, identified “factors that are critical to the success of any
          consolidation.” It recommended two or three service centers, with each center
          providing identical transactional services to designated EPA offices. Among
          other factors necessary to improve the appointment process, the 2007 Business
          Case identified:

             •   Investing in information technology infrastructure,
             •   Developing and meeting customer service standards, and
             •   Developing a realistic staffing plan.

Technology Investment Was Not Successful
          EPA did not implement necessary information technology improvements before
          transitioning to the service centers and using the new processes. EPA’s toolkit
          does not require obtaining necessary information systems and performing a risk
          assessment before implementing reorganizations. According to the 2007 Business
          Case, to realize the efficiencies underpinning the service centers’ success, EPA
          would need to significantly upgrade its information technology infrastructure and
          human resource information systems. Necessary improvements included (1) an



                                           6

                                                                          10-P-0177 



automated Standard Form-52 feature, referred to as “workflow” in PeoplePlus,
which is EPA’s integrated human resources, benefits, payroll, and time and labor
system; (2) a system to track staffing actions; and (3) a system to develop and
catalog position descriptions.

   •	 Electronic Workflow: The PeoplePlus workflow function was supposed
      to provide a paperless system with electronic signatures to process the
      Standard Form-52, which is the “Request for Personnel Action” used to
      initiate a recruitment action. It would eliminate some of the current
      manual, paper-intensive steps. Workflow was tested for some personnel
      actions, such as giving awards to employees, but failed. Consequently,
      OARM stopped efforts to implement the workflow function. OARM
      officials recently said they now intend to obtain the workflow
      functionality from a line-of-business provider.

   •	 Tracking System: Service centers use an electronic system, HRACTS, to
      track the status of recruitment actions. However, as discussed in more
      detail in Chapter 3, some HRACTS data are inaccurate or incomplete.
      HRACTS has no controls to ensure data quality. Also, HRACTS is not
      available to all program office staff; some program offices can use the
      system to view the status of recruitment actions on a pilot basis.

   •	 Electronic Position Description Library: EPA managers must prepare
      position descriptions that accurately reflect the major duties and
      responsibilities assigned to their employees. Currently, the position
      descriptions are paper based and kept in binders by program office.
      According to the service center directors, OARM hired summer students
      to convert paper position descriptions to an editable, electronic format to
      be stored in an EPA position description library that program offices can
      use when filling vacancies. The service centers selected position
      descriptions that met certain quality criteria to be converted to this
      electronic format. However, this effort does not satisfy the 2007 Business
      Case because the library does not also develop position descriptions.

OARM abandoned some unsuccessful efforts and did not completely implement
other necessary improvements. In a June 30, 2009, memorandum to EPA’s top
managers, the then-Acting OARM Assistant Administrator acknowledged that
EPA’s information technology efforts had been unsuccessful. OARM officials
noted that electronic workflow capability would be one of the criteria for selecting
a provider. EPA has not determined whether a tracking system and the electronic
position description library will be part of its contracted services.

OARM implemented the service centers without obtaining crucial information
systems or performing a risk assessment as required by OMB Circular A-123.
The circular requires documenting the risk of proceeding without first obtaining
the systems. In the previously mentioned OIG Report No. 09-P-0206, we


                                 7

                                                                                    10-P-0177 



         concluded that EPA pursued updates to human resources systems without
         documented approval from OMB. EPA responded that it would no longer pursue
         any upgrades to its existing system but would acquire services from an OPM-
         approved line-of-business provider.

Service Centers Cannot Assess Performance Regarding Customer
Service Standards
         Some aspects of service centers’ work could not be measured when the centers
         began operating. According to the 2007 Business Case, developing customer
         service standards and performance metrics is one of the most important factors
         contributing to service centers’ success. To measure the service centers’
         performance, a feedback mechanism is necessary to ensure customers receive
         timely, high-quality services. The toolkit states that EPA should develop
         evaluation criteria before implementing the reorganization and then evaluate the
         effectiveness of the reorganization. This evaluation is to include monitoring the
         implementation process, reviewing how well the new structure is performing, and
         using performance indicators to measure the effectiveness of the new design.

         Customer service standards for the service centers were developed in July 2008,
         but when the standards became effective in October 2008, there were no methods
         to measure some of the standards and thus determine whether the standards were
         met. As a result, program offices and service centers did not have information
         useful for improving the process.

         Some standards could not be measured in July 2008 because:

            •	 Service centers had not established customer feedback tools to determine
               whether the program offices were satisfied with their performance.
            •	 Service centers had no method to identify customer inquiries about actions
               being processed.
            •	 There was no method in place to measure how long it took to respond to
               customer inquiries.

         In July 2009, service centers began sending questionnaires to the program office
         staff about the actions they processed. As part of our review, we interviewed
         54 EPA program office staff members and 25 recently appointed staff associated
         with the sampled actions. Program office staff members were most dissatisfied
         with how long it took to fill a vacancy, the quality and timeliness of assistance
         from the service center during the evaluation process, and service center advice
         about how to best fill a vacancy. Some program office staff members were
         dissatisfied with their overall dealings with the service center staff. Recently
         appointed staff members were mostly dissatisfied with orientation activities, their
         overall dealings with the service center, and the service center’s level of effort to
         keep them informed.



                                           8

                                                                                   10-P-0177 



          The customer service standards established timeliness goals for service centers’
          response to customer inquiries, but service center staff do not have information
          necessary to measure performance against that standard. In addition, as discussed
          elsewhere, HRACTS data is unreliable. Even though EPA’s toolkit recommends
          developing a plan to ensure the effectiveness of the reorganization, OARM has
          not done so.

Staffing Plan Was Not Adjusted
          The staffing levels proposed for the service centers were neither adequately
          supported nor adjusted to reflect actual conditions. According to the toolkit, EPA
          can conduct benchmarking studies of comparable organizations, as well as a
          workforce assessment, to determine appropriate staffing and grade levels for the
          new organization. OARM managers said they could not benchmark other
          organizations because of the differences in the other organizations they reviewed.
          However, benchmarking studies, even though not of identical organizations, may
          have helped EPA identify proper staffing levels for service centers, streamline the
          new process, and provide criteria to evaluate the reorganization’s effectiveness.
          EPA could use benchmarking information in selecting a line-of-business provider
          by identifying the necessary services to obtain and those services EPA will still
          have to provide.

          For optimal performance of transactional work, the 2007 Business Case
          concluded that the ratio of service center staff to customers should be 1:180, or
          about 100 human resources staff for the approximately 18,000 EPA employees.
          However, the 2007 Business Case did not provide rationale or support for that
          number. This rationale should have been explained as part of the toolkit’s detail
          design process. EPA’s reorganization policy states that all pertinent comments
          must be resolved with the affected offices before the reorganization proposal can
          be approved. In a June 2007 joint memorandum to the OARM Assistant
          Administrator, the Deputy Chief of Staff and 10 Deputy Assistant Administrators
          questioned the support for the human resources servicing ratio. OARM
          responded that the ratio used was based on several key assumptions, including the
          implementation of electronic processing and a tracking system – both needed to
          improve timeliness. EPA had neither system before it implemented the service
          centers. Therefore, the comments about the staffing ratio from the Deputy Chief
          of Staff and 10 Deputy Assistant Administrators were not resolved prior to
          transitioning to the service centers.

Conclusion
          OARM established a reorganization plan with an analysis based on assumptions
          and new capabilities. OARM did not reevaluate its reorganization plan when it
          became apparent the plan lacked the capabilities identified as critical to the
          success of the service centers. Consequently, OARM cannot provide assurance
          that the plan will succeed in meeting EPA and OPM hiring goals.


                                           9

                                                                                   10-P-0177 



Recommendations
         We recommend that the Assistant Administrator for Administration and
         Resources Management, the Chief Financial Officer, and the Assistant
         Administrator for Environmental Information:

            2-1	    Determine the scope of services to be provided under a human
                    resources line-of-business provider contract. Among the services
                    considered should be an automated workflow process, a tracking
                    system with responsive in-process metrics that will be provided to
                    EPA, and a system to develop and catalog position descriptions.

            2-2	    Based on the above considerations, select a line-of-business provider
                    and develop and implement a plan to migrate to the selected provider.

         We recommend that the Assistant Administrator for Administration and
         Resources Management:

            2-3	    Change EPA Order 1110.8A5, EPA Reorganization Policy, and the
                    related toolkit to require that infrastructure requirements (including
                    information systems) are considered and addressed, and risks are
                    assessed in accordance with OMB Circular A-123 before
                    implementing reorganizations.

            2-4	    As specified in the 2008 Customer Service Standards, design and
                    implement methods to:

                    (a) identify customer inquiries and how long it took to respond to
                        those inquiries, and

                    (b) measure performance toward establishing timeliness goals for
                        service centers’ responses to customer inquiries.

Agency Comments and OIG Evaluation
         In a memorandum dated June 11, 2010, the Deputy Assistant Administrator for
         Administration and Resources Management (signing for the Assistant
         Administrator) offered comments on the OIG draft report dated May 4, 2010.
         Appendix A is this memorandum. Regarding Chapter 2, the Deputy Assistant
         Administrator agreed with the two recommended actions related to the line-of-
         business provider (2-1 and 2-2), but suggested different action officials instead of
         the Deputy Administrator. The Deputy Assistant Administrator stated they expect
         to select the line-of-business provider by September 30, 2010, and have the new
         systems implemented and operational by September 30, 2013. The Deputy
         Assistant Administrator also suggested different corrective actions for the other
         two recommendations. For example, regarding recommendation 2-3, the Deputy


                                          10 

                                                                        10-P-0177 



Assistant Administrator proposed reviewing the order and changing it as
appropriate; the Deputy Assistant Administrator did not address changing the
related toolkit. Other corrective actions were also suggested at a meeting with
OARM officials on June 24, 2010; regarding customer inquiries (2-4), they said
they plan to revise the survey of service center customers to obtain customer
feedback on the service centers’ timeliness in responding to inquiries.

We changed the action officials for the first two recommendations (2-1 and 2-2).
We did not revise recommendation 2-3, which was to change the guidance related
to reorganizations. We believe the order and toolkit should be changed; until
resolved, this recommendation is classified as undecided. Although we did not
change recommendation 2-4, the proposed alternative of adding a related question
to the customer survey is acceptable to the OIG; we believe it meets the intent of
obtaining feedback on the timeliness of responses to inquiries.




                                11 

                                                                                                           10-P-0177 





                                             Chapter 3

             Service Centers Not Meeting Expectations
                  EPA’s service center implementation was not meeting organizational or customer
                  expectations. EPA was taking an average of 141 days2 to fill vacant positions for
                  the sample actions when the OPM goal was 80 days; thus, EPA exceeded the
                  OPM timeliness goal by 61 days. In addition, service centers did not consistently
                  provide program managers with the best candidates. Further, data quality and
                  recruitment action processes need improvement. Some of these problems
                  occurred due to the issues noted in Chapter 2. We also noted a lack of
                  management attention to policies and inconsistencies in service center operations.
                  As a result, the appointment process is not providing program offices with the
                  right people, in the right place, at the right time, thus impacting EPA’s ability to
                  effectively perform its mission.

Service Centers Are Not Meeting Timeliness Goals

                  EPA service centers did not have the necessary information technology and mix
                  of knowledgeable human resources staff to hire people in a timely manner. Only
                  1 of the 28 sampled actions was completed within OPM’s 80-day goal. Figure
                  3-1 shows the average time spent in each phase for the three service centers.
                  Overall, it took all three service centers an average of 141 days to fill the
                  vacancies we sampled – 61 days in excess of the 80-day goal. The breakdown by
                  service center was an average of 140 days for Cincinnati, 112 days for RTP, and
                  162 days for Las Vegas.




2
  For the purposes of this report, we have calculated calendar days as the days that pass between two given dates.
By common practice, calendar days are measured from midnight to midnight. The formula for this calculation is
[later date] – [earlier date]. With this approach, if two or more activities occur on a single day, the time between
these activities does not count as a calendar day; thus a zero would be entered as the elapsed calendar days for this
event. For example, if the classifier completes the classification on the same day he/she received it, this day would
not count as a calendar day in the overall calculation of days expended during this hiring action. The net effect of
this approach is that our calculations may understate the total number of days required to complete a given hiring
action.


                                                          12 

                                                                                       10-P-0177 



Figure 3-1

                                       Average Time Spent in
                                Three Phases of Recruitment Process



  Cincinnati

                                                                                       Initial Phase


       RTP                                                                             Middle Phase


                                                                                       Final Phase



  Las Vegas


               0   20      40      60          80        100   120   140   160   180
                                               Calendar Days


Source: OIG analysis of sample items.

In a memorandum dated June 30, 2009, the then-Acting OARM Assistant
Administrator acknowledged that challenges remain in meeting the OPM
timeframes. He went on to state that OARM is leading an ongoing collaborative
effort among the three centers to identify and share best practices to increase the
overall efficiencies to support performance.

For the sampled actions in Figure 3-1, the initial phase of the recruitment process
consumed most or all of the 80 days (an average of 115 days for Cincinnati,
69 days for RTP, and 78 days for Las Vegas). We identified several factors that
contributed to the lengthy staff appointment period, as follows.

Position Classification Is Time Consuming

EPA did not consistently use standard or previously classified position descriptions
and conducted a full classification review even when using previously classified
descriptions. It took the service centers an overall average of 12 days to classify
the sampled actions. EPA’s goal is 2 days according to the SOP on position
descriptions. OPM’s goal is 1 day, but assumes agencies are using automated
systems and standard or previously classified position descriptions. A standard
position description can be used to describe a number of positions and provides a
single position description covering two or more positions within an organization
that are substantially the same.

EPA Order 3150.1, Position Classification, encourages using standard position
descriptions. These standard position descriptions could be classified in advance.
They may also have their risk designation determined in advance, which would
eliminate the need for EPA’s Personnel Security Branch to review them. Service
center directors agreed that using standard position descriptions saves time, but
indicated that using previously classified position descriptions may not save time


                                        13 

                                                                           10-P-0177 



because some previously classified position descriptions are out of date and
require a thorough classification review. However, using position descriptions
classified within the last 5 years would allow a specialist to perform an
abbreviated review.

Improved Mix and Training of Specialists Needed

Staff for the centers was not as experienced as expected. The three service center
locations were selected in part because OARM said it could attract experienced
personnel at those locations. However, no analysis supported this assumption.
The service center directors have found it difficult to hire experienced personnel
and it will take time for the recently hired specialists to become fully productive.
Some recently hired specialists needed additional training to perform certain
duties. In a June 30, 2009, memorandum, the then-Acting OARM Assistant
Administrator noted that the service centers have increased training.

As noted, it took EPA an average of 12 days to classify a position. According to
service center staff, knowledgeable specialists were not always available to
promptly classify positions, and all three centers have supplemented their
classification expertise with contractor resources. Las Vegas has two contract
classifiers available to help with classifying; RTP and Cincinnati use the same
contractor and have about $1.4 million available for contracted services.
However, EPA still did not meet the EPA or OPM performance standards.

Mix of Paper and Electronic Documents Can Lead to Delays, Errors

EPA has not obtained the electronic workflow capability it identified as necessary
for successful implementation of the service center model. Consequently, it
continues to fill vacancies using a mixture of electronic systems and manual, paper-
intensive steps. Each shift between paper and electronic steps increases the
likelihood of a delay and the opportunity for error. For example, one subject-
matter expert noted a page on qualification questions was missing, and several
e-mail exchanges were needed over a 27-day period to resolve all the problems. In
another instance, a recently hired person indicated her transcripts were initially lost
and the person had to FedEx another copy, which the person believed delayed her
entry on duty by about 3 weeks. Although a version of EZ-Hire can handle
electronic transcripts, EPA’s version cannot. Table 3-1 identifies the many
documents in the recruitment process that are mailed, faxed, or e-mailed to the
service centers and must be integrated into the electronic-based parts of the system.




                                 14 

                                                                                 10-P-0177 



Table 3-1: Nonelectronic Portions of Recruitment Process
 Initial Phase
  •  Recruitment documents from the program office (including signed documents such
     as the SF-52, position description, extramural resources management duties
     checklist, staffing requisition, travel determination forms, and justification for term
     position) are sent to the service center by mail or FedEx.
 • The Job Analysis Report, prepared by the specialist and subject-matter expert,
     must be printed and signed by both individuals. This report identifies questions for
     the announcement selected by the expert from the EZ-Hire question library, but the
     expert cannot electronically transfer the questions to the announcement.
 • The Weights and Screenout Report that is generated by EZ-Hire must be printed
     and signed by the program expert.
 • The vacancy announcement that is generated by EZ-Hire must be printed and
     signed by someone in the program office.
 Middle Phase
  •  Paper copies of applicants’ supplemental documentation, such as proof of military
     service and college transcripts, must be mailed, e-mailed, or faxed to the service
     center and filed.
 Final Phase
  •   Documents such as the OF-306, Declaration for Federal Employment, must be
      signed by the selected candidate and sent to the service center.
  •   During orientation, some documents must be signed by the new employee and
      sent to the service center, such as the Form I-9 Employment Eligibility Verification.
Source: SOPs and participant interviews.



EPA should be able to fill vacancies quicker and accurately by obtaining an
electronic workflow process such as that identified in the 2007 Business Case.
EPA intends to make electronic workflow a criterion for selecting a line-of-
business provider.

EZ-Hire Question Library Difficult to Use

Subject-matter experts select questions from EPA’s EZ-Hire electronic question
library to develop vacancy announcements. OARM maintains the library, which
contains approximately 38,000 questions. For over 50 percent (15 of 28) of the
sampled actions, either the selecting official or subject-matter expert interviewed
was dissatisfied with the usability and quality of the library. Specialists needed
help from subject-matter experts to (1) analyze the job, (2) select appropriate
questions, and (3) determine the relative importance of the questions. Subject-
matter experts and selecting officials told us that the library questions were poorly
organized, searching for questions was difficult, questions were duplicated, and
some questions had spelling and grammar errors. As a result, those not familiar
with the library need more time to select questions; one subject-matter expert
using the library for the first time reported spending about 40 hours doing so.




                                      15 

                                                                                      10-P-0177 



Service Centers Have Not Consistently Provided Qualified Candidates
          An important part of the appointment process is providing program offices with a
          list of the most qualified candidates, but the service centers did not consistently
          provide the desired quantity and quality of candidates. For three of the nine
          delegated examining actions sampled, the selecting official and/or subject-matter
          expert from the program office reported not receiving certificates with qualified
          candidates. We noted the following issues.

          Policy Unnecessarily Limits Choices

          For delegated examining announcements, the SOP unnecessarily limits the list of
          names sent to the selecting official. The SOP provides that the certificate will
          consist of the top three candidates if there is one vacancy, plus one additional
          candidate for each additional vacancy. According to the service center directors,
          the list was limited because Title 5 Code of Federal Regulations 332.404 requires
          selecting officials to select from the three highest-ranked candidates. The
          regulations state that an appointing officer will select someone “from the highest
          three eligibles on the certificate who are available for appointment.” This is
          commonly known as the “rule of three.”

          Some program offices were not satisfied with receiving only three candidates.
          Title 5 Code of Federal Regulations 332.402 provides that selecting officials will
          receive sufficient names, when available, to allow them to consider at least three
          candidates for each vacancy (emphasis added). Therefore, three is the minimum
          for the certificate, not the maximum. Selecting officials may object to a candidate
          to reach another applicant if they believe one of the top three candidates is not
          qualified or there are suitability issues. However, objecting can be time
          consuming and involve an OPM review. Until the objection is resolved, the
          selecting official cannot pick anyone else. The program office can also cancel the
          announcement and readvertise the position, which also requires significant time.

          EPA Should Use Category Rating to Identify Best Candidates

          For competitive appointments from delegated examining announcements, category
          rating is an alternate process to the rule of three that can provide additional qualified
          candidates for consideration. Instead of using numerical scores, a category-based
          method assesses, rates, and ranks applicants, taking into account veterans preference.
          The selecting official may pick any of the candidates in the highest quality category.
          Category rating may be used for merit promotion announcements.

          According to OPM’s Delegated Examining Operations Handbook, agencies wishing
          to use category rating must have a policy to do so. EPA has had a draft category
          rating policy since 2007 and has recently taken steps to issue it. The Human
          Resources Policy Division director said that the policy was not a priority, and if it
          became a priority, it would take about 2 years to issue due to staff shortages. This


                                            16 

                                                                                    10-P-0177 



          director noted that issuing the policy would take that long because they would have
          to research the issue, obtain input from stakeholders, ensure related systems can
          incorporate the categories, usher the proposal through the clearance process, and
          train users. The draft policy has already been tested against EZ-Hire to ensure that
          system could incorporate the categories. Using category rating should be
          reconsidered.

          Subject-Matter Experts Should Perform More Initial Reviews

          Service center specialists do not typically request help from subject-matter experts
          in program offices when evaluating applicants. Early input by subject-matter
          experts would improve the quality of the candidates, although it would require
          more effort by the expert. SOPs provide that specialists may involve subject-
          matter experts in reviewing applications. According to OMB in Memo M-09-20,
          issued June 11, 2009, involving the hiring managers in all critical parts of the
          hiring process, including the initial review of applications, is necessary to
          improve the hiring process. In EPA’s case, SOPs should state that program
          offices should determine who performs the initial reviews, subject-matter experts
          or specialists. This determination would help ensure that quality candidates are
          selected because, for certain positions, specialists may not have the expertise to
          evaluate applicants’ qualifications. We noted instances in which the selecting
          offices were not satisfied with initial names provided, and earlier involvement by
          the subject-matter experts could have prevented that from occurring.

Data Quality and Recruitment Action Processing Issues Noted
          HRACTS, the database used to track recruitment actions, had inaccurate and
          incomplete entries for most of the actions we reviewed. In addition, we noted
          various other processing issues. These issues made it more difficult to accurately
          track the status of recruitment actions and caused confusion for new employees.

          HRACTS Database Contains Errors and Is Incomplete

          Information in the HRACTS tracking system was not always accurate and
          complete. HRACTS provides workload and performance information to the
          service centers and program offices. Each specialist adds information to the
          system and has authority to edit existing data. HRACTS mostly consists of
          activity dates related to processing recruitment actions, such as when the service
          center received the recruitment package and the effective date when the selected
          candidate reported for duty. EPA uses these dates in HRACTS to generate reports
          on the 80-day goal for OPM. The HRACTS database generates monthly status
          reports that the service centers send to program offices. Some program offices are
          also given access to view HRACTS data on a test basis.

          At the time of our review, there was no method to ensure the accuracy or
          completeness of the HRACTS data. According to EPA procedures on the life


                                           17 

                                                                          10-P-0177 



cycle of information systems (System Life Cycle Management Procedures, OEI
2121-P-01.0), data must be continually checked for accuracy and completeness.
If HRACTS does not contain accurate and complete data, including an entry for
each action, information from HRACTS will be unreliable. We noted the
following problems with the quality of the data:

   •	 Not every action had a record in HRACTS. Two actions in our sample did
      not have a separate record in the system; one of these was combined with
      another action in a single record, and the other had no record at all.

   •	 Some fields that should contain information were blank. For 23 fields
      within the 27 HRACTS records for the sampled actions, 7 records were
      complete and 20 records were missing information in one or more fields.

   •	 Data in the fields were not always accurate. Of the 27 sampled actions
      with a HRACTS record, comparison of the case file to the HRACTS
      record indicated that 5 records had accurate information and 22 records
      contained incorrect information in one or more fields.

Inaccurate and incomplete HRACTS data will adversely affect the quality of
timeliness measures and managers’ decisions on workload and processing. Of the
27 sampled actions with information in HRACTS, the data needed to measure the
80-day goal were incomplete for 8 actions. For the 19 actions with the necessary
HRACTS data, the dates in HRACTS indicated processing the actions took an
average of 132 days, while our comparison against case file documentation
showed it actually took 141 days. Fixing HRACTS deficiencies in the short term
and determining whether to replace HRACTS with another tracking system in the
long term would improve the documentation of management decisions on
workload and processing.

Service Center Processing Issues Noted

Service centers did not follow all SOPs to ensure consistent and efficient operations
among the three centers. We noted the following:

Erroneous/Missing Offer Letters. Nearly half of the recently appointed
employees in our sample indicated they did not receive a formal offer letter or the
letter they received was incorrect. According to SOPs, service centers are
required to send formal job offer letters to selected candidates once their entrance
dates have been established. Of the 25 recently appointed employees interviewed,
8 whose appointments were processed by RTP or Cincinnati said they did not
receive a formal offer letter, while 3 processed by Las Vegas reported receiving
letters with inaccuracies, such as errors in pay grade or steps.

Center Did Not Use Case File Checklist. For the actions in our sample, staff at
Las Vegas did not use a case file checklist as required by SOPs. SOPs require a


                                 18 

                                                                                   10-P-0177 



         checklist to ensure that the case file contains the appropriate documents and to
         document that certain activities in the process were performed. The Las Vegas
         director told us that the service center began using checklists in March 2009.

         Procedures Do Not Address the Role of the Personnel Security Branch.
         Although not identified in SOPs, the Personnel Security Branch, which is part of
         OARM, determines the risk level of positions to be filled and is responsible for
         security clearances. Both the service centers and the Personnel Security Branch
         track when SF-52 documentation is submitted and/or released to one another. The
         Personnel Security Branch uses a system that automatically enters dates; the service
         centers enter information manually. We found date discrepancies between the two
         systems, which adversely affect analysis of timeliness.

         Center Does Not Allow Staff to Develop Expertise with Program Offices.
         Unlike the RTP and Cincinnati service centers, where staff consistently work on
         recruitment actions for a specific program office, the Las Vegas center assigns staff
         to work on recruitment actions on a first-in, first-out basis. Working consistently
         with the same program office would allow a specialist to gain expertise in the type
         of positions used by that office and be better able to evaluate applicants for those
         positions. It would also improve communication, which some program office staff
         identified as a problem with Las Vegas. Knowing the point of contact for
         recruitment actions reduces confusion and facilitates question resolution.

Conclusion
         OARM implemented and operated the service centers without all the necessary
         tools needed to succeed and could not reach OPM’s 80-day timeliness goal.
         Procedural and policy changes, along with information systems improvements,
         are needed to assure efficient operation of the appointment process by the service
         centers in the near term, and by the line-of-business provider when selected.

Recommendations
         We recommend that the Assistant Administrator for Administration and
         Resources Management:

             3-1	   Help the Assistant Administrators and Regional Administrators
                    develop and use standard position descriptions where practicable.
                    These position descriptions should be included in the electronic
                    position description library and made available to all offices.

             3-2	   Work with the Assistant Administrators and Regional Administrators
                    to review questions in the EZ-Hire question library and, if needed,
                    correct erroneous or out-of-date questions.




                                          19 

                                                                                    10-P-0177 



            3-3	    Increase the involvement of the subject-matter experts in reviewing
                    applications to determine who should be on the candidate list sent to
                    the selecting official.

            3-4 	   Address staffing, policy, and procedural needs for processing
                    appointment actions until EPA migrates to a line-of-business provider.
                    Specifically:

                    (a) Ensure there are sufficient, qualified personnel to operate the
                        service centers;

                    (b) Expeditiously issue the category rating policy;

                    (c) Establish standard operating procedures to address (1) how
                        recruitment actions are assigned to specialists, (2) the role of the
                        Personnel Security Branch, and (3) how improvements suggested
                        by feedback from the program office staff will be addressed;

                    (d) Ensure that the service centers follow the standard operating
                        procedures; and

                    (e) Establish sufficient internal controls on data quality to ensure the
                        Human Resources Activity and Communication Tracking System
                        information is complete and accurate.

Agency Comments and OIG Evaluation
         With two exceptions, in the memorandum dated June 11, 2010, the Deputy
         Assistant Administrator for Administration and Resources Management agreed
         with the recommendations in Chapter 3. However, the Deputy Assistant
         Administrator suggested a different action official for the first three
         recommendations (3-1, 3-2, and 3-3). In several cases, the Deputy Assistant
         Administrator identified actions already taken to correct the problems identified.
         For example, regarding recommendation 3-1, a workgroup that included staff
         from the RTP HRMD and a program office were developing standard position
         descriptions. The two exceptions concerned changes to SOPs under
         recommendation 3-4(c). Regarding how recruitment actions would be assigned to
         specialists (3-4(c)(1)), the Deputy Assistant Administrator disagreed. The Deputy
         Assistant Administrator’s comments indicated managers would assign work based
         on timeliness and quality of delivered services. Regarding improvements
         suggested by the program offices (3-4(c)(3)), the Deputy Assistant Administrator
         did not commit to incorporating into the SOP how suggested improvements
         would be addressed.

         As suggested, we changed the action official for the first three recommendations
         and revised recommendations 3-1 and 3-2 slightly to accommodate the change.


                                          20 

                                                                          10-P-0177 



The effort described by the Deputy Assistant Administrator to standardize
position descriptions is acceptable to the OIG if the Assistant Administrator
approves and implements a plan to standardize position descriptions and makes
the standard position descriptions available to all. Similarly, the actions proposed
to improve the EZ-Hire Library are acceptable if the program offices are properly
involved. Recommendations resolved by completed actions are identified in the
Status of Recommendations and Potential Monetary Benefits table that follows,
and need not be addressed in the 90-day reply. Regarding the two changes to
SOPs with which the Deputy Assistant Administrator either disagreed or did not
endorse, we believe in both cases that the SOPs should be revised to ensure
consistency in operating the service centers. Until resolved, these items are
classified as undecided.




                                 21 

                                                                                                                                      10-P-0177




                           Status of Recommendations and
                             Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                              RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                Planned
Rec.   Page                                                                                                    Completion   Claimed    Agreed To
No.     No.                         Subject                           Status1         Action Official             Date      Amount      Amount

2-1     10    Determine the scope of services to be provided            O       Assistant Administrator for    9/30/2010
              under a human resources line-of-business provider                     Administration and
              contract. Among the services considered should                     Resources Management,
              be an automated workflow process, a tracking                      Chief Financial Officer, and
              system with responsive in-process metrics that will               Assistant Administrator for
              be provided to EPA, and a system to develop and                   Environmental Information
              catalog position descriptions.

2-2     10    Based on the above considerations, select a line-         O       Assistant Administrator for    9/30/2013
              of-business provider and develop and implement a                      Administration and
              plan to migrate to the selected provider.                          Resources Management,
                                                                                Chief Financial Officer, and
                                                                                Assistant Administrator for
                                                                                Environmental Information

2-3     10    Change EPA Order 1110.8A5, EPA Reorganization             U       Assistant Administrator for
              Policy, and the related toolkit to require that                      Administration and
              infrastructure requirements (including information                 Resources Management
              systems) are considered and addressed, and risks
              are assessed in accordance with OMB Circular
              A-123 before implementing reorganizations.

2-4     10    As specified in the 2008 Customer Service                 O       Assistant Administrator for
              Standards, design and implement methods to:                          Administration and
                (a)    identify customer inquiries and how long it               Resources Management
                       took to respond to those inquiries, and
                (b)    measure performance toward establishing
                       timeliness goals for service centers’
                       responses to customer inquiries.

3-1     19    Help the Assistant Administrators and Regional            O       Assistant Administrator for
              Administrators develop and use standard position                     Administration and
              descriptions where practicable. These position                     Resources Management
              descriptions should be included in the electronic
              position description library and made available to
              all offices.

3-2     19    Work with the Assistant Administrators and                O       Assistant Administrator for
              Regional Administrators to review questions in the                   Administration and
              EZ-Hire question library and, if needed, correct                   Resources Management
              erroneous or out-of-date questions.

3-3     20    Increase the involvement of the subject-matter            O       Assistant Administrator for
              experts in reviewing applications to determine who                   Administration and
              should be on the candidate list sent to the selecting              Resources Management
              official.




                                                                            22 

                                                                                                                                         10-P-0177


                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                         Subject                           Status1        Action Official            Date      Amount      Amount

    3-4       20    Addresses staffing, policy, and procedural needs                 Assistant Administrator of
                    for processing appointment actions until EPA                        Administration and
                    migrates to a line-of-business provider.                         Resources Management
                    Specifically:
                      (a)   Ensure there are sufficient, qualified           C
                            personnel to operate the service centers;

                      (b)   Expeditiously issue the category rating          C
                            policy;

                      (c)   Establish standard operating procedures          U
                            to address (1) how recruitment actions are
                            assigned to specialists, (2) the role of the
                            Personnel Security Branch, and (3) how
                            improvements suggested by feedback
                            from the program office staff will be
                            addressed;

                      (d)   Ensure that the service centers follow the       C
                            standard operating procedures; and

                      (e)   Establish sufficient internal controls on        C
                            data quality to ensure the Human
                            Resources Activity and Communication
                            Tracking System information is complete
                            and accurate.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 23 

                                                                                       10-P-0177 



                                                                                   Appendix A

                  Agency Response to Draft Report


                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                                    OFFICE OF 

                                                                                  ADMINISTRATION

                                                                                  AND RESOURCES 

                                                                                   MANAGEMENT





                                        JUNE 11, 2010

MEMORANDUM

SUBJECT:      Response to Draft Office of Inspector General Report “EPA’s Revised Hiring
              Process Needs Additional Improvements” Project No. OPE- FY08-0015

FROM:         Craig E. Hooks /s/ Susan B. Hazen for CEH
              Assistant Administrator

TO:           Eric Lewis
              Special Review Product Line Director
              Office of Inspector General

       Thank you for the opportunity to review the subject report and provide you with our
comments. As the National Program Manager (NPM) for Human Resources, I am the
appropriate action official for addressing the findings and recommendations in the report. In
general, I look forward to sharing additional information with your office to document the steps
we have taken towards achieving the goals reflected in the recommended actions. This is due in
no small part to the continued efforts of staff in the Shared Service Centers (SSCs) and in the
Office of Human Resources. That information is included as an attachment to this
memorandum. By way of clarification, we would like to offer the following observations for
your consideration:

       In the introduction section of the report, under the heading titled “OPM Wants Agencies
to Use Certified Providers; EPA is Uncertain What Services It Will Obtain,” the report
acknowledges that “OPM, at the direction of OMB, is managing a government-wide effort to
improve service and reduce costs for information technology systems and supporting processes
associated with human resources.” We wish to point out that:




                                               24 

                                                                                         10-P-0177 



      •	 OMB’s decision to have OPM manage this government-wide effort included a
         moratorium on any additional investments by Agencies in information technology
         systems; and

      •	 EPA was in the final planning stages for our migration to the shared service center model
         at that point in time.


        We believe that the decision to move to SSCs was appropriate. This transition better
positions the Agency to improve human resources customer service on several fronts,
specifically achieving greater efficiency in the hiring process.

        In closing, I would again like to offer my appreciation for the opportunity to comment on
the draft report. We will email this memo and our responses to the proposed recommendations
to Christine Baughman as requested. If you or your staff have any additional questions, please
contact Kimberly Lewis, Director, Office of Human Resources at (202) 564-4606, or Marvin
Schulman at (202) 564-7778.

Attachment

cc:      S
         	 usan Hazen
         Sandy Womack
         Sherry Kaschak
         Kimberly Lewis
         Susan Kantrowitz




                                                 25 

                                                                                          10-P-0177 



                                                                                       Attachment

Below is the OARM response to the recommendations in the draft evaluation report “EPA’s
Revised Hiring Process Needs Additional Improvements” Project No OPE-FY08-0015, issued by
the Office of the Inspector General on May 4, 2010.

Recommendations

We recommend that the EPA Deputy Administrator:

2-1 	   Determine the scope of services to be provided under a human resources line-of-
        business provider contract. Among the services considered should be an automated
        workflow process, a tracking system with responsive in-process metrics that will be
        provided to EPA, and a system to develop and catalog position descriptions.

        While we are in agreement with the substance of the recommendation, we believe that the
Assistant Administrator (AA) for OARM is the appropriate action official for determining the
scope of services to be included in our human resources line-of-business (HR LoB) system.
“Workflow” is not only important for the electronic routing of various HR documents, but is also
necessary for an effective tracking system where information is in the hands of the requesting
office at any time. The ability to provide this information is very important to the selection of an
HR LoB provider. We agree with the report’s recommendation for including a system to
develop and catalog position descriptions (a PD library). The system we have been exploring
has these capabilities.

2-2	    Based on the above considerations select a line-of-business provider and develop
        and implement a plan to migrate to the selected provider.

         Staffs from the Office of the Chief Financial Officer, Office of Human Resources, and
human resources representatives from the regions and shared service centers have been involved
in fit-gap exercises to examine the functionality of a potential replacement for our current
Peoplesoft and DFAS systems. This is a critical step to ensuring that the Agency’s system needs
can be met, in order to make a recommendation to senior management that is in EPA’s best
interests.

        A presentation on the HR LoB provider currently under consideration was made to
members of the Assistant Regional Administrator (ARA) community and other Agency leaders
in late May, 2010. The purpose of the presentation was to explain the progress to date in
conducting the fit-gap analyses to identify any potential technical system logistics, gather
feedback on any system needs or concerns the ARAs may have had, and to gain their support for
this effort.

        An implementation plan, mapping out the steps that need to be taken from the point of
selection to the point that the system is operational has been drafted. It projects having a new
line-of-business system implemented and operational in FY2013 provided the AA for OARM
and the Chief Financial Officer reach a final decision on a line-of-business provider by the end of
FY2010.


                                                26 

                                                                                       10-P-0177 





We recommend that the Assistant Administrator for Administration and Resources
Management:

2-3 	   Change EPA Order 1110.8A5, EPA Reorganization Policy, and the related Toolkit,
        to require that infrastructure requirements (including information systems) are
        considered and addressed, and risks are assessed in accordance with OMB Circular
        A-123 before implementing reorganizations.

        We will review the Order and make any changes as appropriate.

2-4 	   As specified in the 2008 Customer Service Standards, design and implement
        methods to

          (a) identify customer inquiries and how long it took to respond to those inquiries,
          and

          (b) measure performance toward established timeliness goals for service centers’
          responses to customer inquiries.

        The 2008 Customer Service Standards were developed at the outset of our migration to
the shared service center model. Based on our experience and additional analysis, we believe it
is not practical or feasible to track customer inquiries. We are currently analyzing the
practicality of this requirement.

        The data in the Human Resources Activity and Communication Tracking System
(HRACTS) is better and more accurate than was the case when representatives from OIG looked
at the system during the early phases of their evaluation. Program offices now have direct
access to the HRACTS system, alleviating the need to make inquiries

Recommendations

We recommend that the Deputy Administrator direct the Assistant and Regional
Administrators to:

3-1 	   Develop and use standard position descriptions where practicable. These position
        descriptions should be included in the electronic position description library and
        made available to all offices.

        An effort to develop standard position descriptions (PDs) has already begun. A
workgroup composed of Staff from the RTP Shared Service Center and representatives from the
Philadelphia Regional Office has been assembled to “kick-start the effort and develop a
proposed work plan” to develop standard PDs. The workgroup made an initial presentation to
the ARAs, the Regional Human Resources Officers and the Headquarters Program Management
Officers at a conference in May. The workgroup showcased a sample of a standard PD they
drafted for an interdisciplinary Remedial Project Manager, GS-401/819/1301-13, along with a



                                               27 

                                                                                           10-P-0177 



sample vacancy announcement and job analysis record. The workgroup has established a plan
that calls for standardized PDs to be developed for the top ten most frequent positions by the end
of the fourth quarter of FY 10. Under this approach, the workgroup plans to standardize
approximately 15 positions every quarter, and post them on the SSC website for supervisors and
managers to access.

3-2	    Review questions in the EZ-Hire question library associated with their office and, if
        needed, recommend that the Assistant Administrator for Administration and
        Resources Management correct erroneous or out-of-date questions.

         Staff in the Office of Human Resources’ IT Division (ITD) have made a number of
improvements to the EZHire question library, including correcting or eliminating erroneous or
out-of-date questions. There have been a number of drivers behind this effort. In April of this
year, EPA transitioned to an upgraded version of the Monster Government Solutions (MGS)
hiring software that EPA calls “EZHire.” As part of that effort the ITD staff reviewed and
eliminated all inactive questions and questions designed for interdisciplinary positions. They
also eliminated spelling, punctuation or grammatical errors in the remaining questions. The staff
is part of a workgroup comprised of representatives from across the Federal government who use
the MGS Enterprise Hiring Management System. The purpose of the workgroup is to identify
best practices, and to share ideas and make recommendations on current/future system
enhancements to improve the hiring process.

3-3 	   Increase the involvement of the subject matter experts in reviewing applications to
        determine who should be on the candidate list sent to the selecting official.

        We agree that additional involvement from subject matter experts (SMEs) can have an
impact on the quality of the certificates of eligibles sent to selecting officials. We recognize that
their involvement in the selection and weighting of EZHire questions when developing the job
analysis is also critical. We will review the standard operating procedures (SOPs) and look for
opportunities to increase their involvement.

We recommend that the Assistant Administrator for Administration and Resources
Management:

3-4 	   Addresses staffing, policy, and procedural needs for processing appointment actions
        until EPA migrates to a line-of-business provider. Specifically:

    •   Ensure there are sufficient, qualified personnel to operate the service centers;

        We agree with this recommendation and have taken steps to ensure that all of the SSCs
are currently at their allocated FTE ceilings. The SSCs have developed an internal training
curriculum for those employees hired into trainee positions, use on-the-job training
opportunities, and have also assigned staff to serve in a quality assurance capacity. As a result of
these efforts, this recommendation has already been implemented and completed.




                                                 28 

                                                                                         10-P-0177 



   •   Expeditiously issue the category rating policy;

        The Office of Human Resources has finalized the Agency guidance on category rating,
and is in the process of developing a roll-out strategy to train (1) the HR specialists on how to
effectively use the category rating process; and (2) selecting officials. This step is critical to
ensuring that supervisors understand how category rating process is different from the “rule of
three” under the Delegated Examining authority, or the process used under our merit promotion
plan. We anticipate implementing this new rating process before November 1, 2010, as
mandated by OPM.

   •   Establish standard operating procedures to address

          (1) how recruitment actions are assigned to specialists;

       Our SSC customer service standards are focused on timely and quality delivery of our
services. Managers take this into account when making work assignments.

          (2) the role of the Personnel Security Branch; and

        The role of the Personnel Security Branch (PSB) in the screening of position descriptions
was the result of an effort to standardize the processes by which risk designation levels were
assigned to positions and the manner in which such suitability determinations were made. This
is similar to the changes experienced by the various Regional offices as a result of migrating to a
SSC. We will review the SOPs to determine the proper placement of PSB’s role.

          (3) how improvements suggested by feedback from the program office
          staff will be addressed.

      We use customer service visits and survey data as valuable tools to guide our
improvements.

   •   Ensure that the service centers follow the standard operating procedures; and

        The Office of Administration and Resources Management has three primary mechanisms
in place to ensure that the SSCs are following their standard operating procedures. The first of
these is the Agency’s HR assessment program which is managed by the Human Capital
Accountability Branch within the Office of Human Resources. Under this program, an
assessment team conducts a transactional audit of the work performed by the shared service
centers. The team reviews transactional work conducted by the SSCs for regulatory compliance
as well as compliance with the Agency policies and SOPs. Representatives from the Office of
Personnel Management typically accompany assessment team members on these assessments,
and copies of the final report are sent to OPM as well as the Office of the Inspector General, as
part of this process. The first assessment of an SSC was conducted during the last quarter of FY
2009. FY 2010 is the first year in which all three SSCs will be visited by the assessment team.




                                                29 

                                                                                        10-P-0177 



        The second mechanism for ensuring consistency involves discussion of such issues
(when they occur) as a regular part of the HR SSC Executive Meetings. These meetings are held
quarterly and chaired by OARM’s Principal Deputy Assistant Administrator.

       Third, OARM created and filled an “HR Liaison” position during the last quarter of FY
2009 to serve as a high-level point of contact and interface between the SSCs and their regional
and headquarters clients. The Liaison is an active participant on the SSC’s SOP workgroup,
coordinates SSC issues with other parts of OHR, and participates in the SSC Executive
Meetings. Creating this position also provided another avenue for representatives from the
regions or AAships to ask questions or raise concerns, including those involving consistent
application of the SOPs.

   •	 Establish sufficient internal controls on data quality to ensure the Human Resources
      Activity and Communication Tracking System (HRACTS) information is complete
      and accurate.

        While the SSC Branch Chiefs and team leaders have made additional efforts to ensure
that the information in the system is complete and accurate, additional challenges to keeping the
system up-to-date remain. The SSCs have included metrics for updating the system in the
performance standards for their HR Specialists and HR Assistants, and will use that information
as part of the performance assessment process.




                                                30 

                                                                                      10-P-0177


                                                                                Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Environmental Information and Chief Information Officer
Chief Financial Officer
Agency Audit Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Environmental Information
Audit Follow-up Coordinator, Chief Financial Officer
Inspector General




                                             31 

